                   AUDIT REPORT

                     Audit of NRC’s Telework Program

                       OIG-10-A-13      June 9, 2010




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          June 9, 2010


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S TELEWORK PROGRAM
                            (OIG-10-A-13)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Telework Program.

The report presents the results of the subject audit. Agency comments provided at the
April 30, 2010, exit conference and a subsequent meeting have been incorporated, as
appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Kathleen Stetson, Team Leader, Financial and Administrative Audit Team,
at 415-8175.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Officer
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl A. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                                      Audit of NRC’s Telework Program


EXECUTIVE SUMMARY



        In recent years, the Federal Government has taken steps to increase
        opportunities for employees to telework. Telework is defined as work
        arrangements in which an employee regularly performs officially assigned
        duties at home or other worksites geographically convenient to the
        employee’s residence. Telework is also a tool that can be used to ensure
        continuity of essential Government functions in the event of national or
        local emergencies.

        The Nuclear Regulatory Commission (NRC), Office of Human Resources
        (HR) Employee/Labor Relations and Work Life Branch, has responsibility
        for implementing the NRC’s telework program in accordance with telework
        guidelines stated in the Collective Bargaining Agreement (CBA) between
        NRC and the National Treasury Employees Union, which covers
        approximately 68 percent of NRC permanent employees. NRC recently
        renegotiated the telework program guidelines in the CBA, effective
        November 1, 2009.

        This report addresses three categories of telework arrangements that are
        practiced at NRC: project-based, fixed-schedule, and full-time. Project-
        based telework is used to complete portable short-term tasks such as
        writing performance appraisals. The time spent is normally measured in
        terms of days or hours. Fixed-schedule telework is a regular arrangement
        to perform portable duties for a specified period of time. For the period
        2006-2009, the number of NRC’s fixed-schedule teleworkers increased
        from approximately 200-700. Full-time telework is a type of fixed-schedule
        telework that occurs when an employee primarily works at an alternate
        workplace. As of January 2010, 27 employees had either obtained or
        requested full-time telework.

   PURPOSE

        The audit objectives were to determine NRC’s readiness to have staff
        telework under emergency situations, the adequacy of internal controls
        associated with the telework program, and if NRC’s telework program
        complies with relevant law and Office of Personnel Management
        guidance. Appendix A contains more information on the audit scope and
        methodology.




                                      i
                                                    Audit of NRC’s Telework Program


RESULTS IN BRIEF

      NRC has established a telework program that supports the agency’s
      mission and work/life programs. However, the Office of the Inspector
      General identified opportunities for program improvements in the following
      areas:

              Readiness to telework during emergency situations.

              Telework program internal controls.

              Compliance with law.

      Readiness to Telework During Emergency Situations

      NRC emergency plans require that employees potentially needed to
      telework during pandemic emergencies be identified and have the
      equipment needed to telework. However, NRC has not identified all of the
      individuals needed for teleworking during pandemic emergencies or the
      methods for accessing information technology systems that are not
      remotely accessible via Citrix or in the event of a power failure, but are
      potentially needed for telework to occur. This is because not all NRC
      offices have made completing the telework aspects of pandemic planning
      a priority. Without identifying the individuals needed to telework during
      emergencies and how systems would be accessed for telework during
      emergencies, the agency’s ability to perform mission-related functions in a
      pandemic emergency is diminished.

      Telework Program Internal Controls

      Management has the fundamental responsibility to develop and maintain
      effective internal control over the telework program, such as ensuring that
      required telework documentation is properly approved, maintained, and
      readily available for examination. In addition, management is responsible
      for developing and implementing detailed telework policies and
      procedures that should appear in a management directive or operating
      manual. However, NRC is not maintaining complete telework
      documentation and has not developed or implemented a telework program
      policy that applies to all agency employees. These internal control
      weaknesses exist because agency policy and procedures regarding
      telework are not consolidated into a management directive and handbook.
      By strengthening internal controls, NRC staff can improve the telework
      program so that employees will have a common understanding of the
      program and an increased awareness of opportunities to telework.




                                     ii
                                              Audit of NRC’s Telework Program


Compliance with Law

NRC is required to establish telework policies that provide eligible
employees the ability to telework to the maximum extent possible without
diminished employee performance. CBA telework eligibility guidance
requires that management consider covered employee performance for
initial and continued participation. Despite these requirements, managers
inconsistently assessed and reported the results of employee
arrangements to HR and in some cases did not report the information.
Performance was inconsistently assessed and reported because NRC has
not established procedures to accomplish a consistent approach. As a
result, the agency has no assurance that all employees who telework full-
time from alternate worksites are maintaining their expected performance
levels.



This report makes recommendations to improve the agency’s
management of the telework program. A consolidated list of these
recommendations appears in Section IV of this report.



At an exit conference on April 30, 2010, agency management stated their
general agreement with the findings and recommendations in this report.
Agency management also provided supplemental information that has
been incorporated into this report as appropriate. As a result, the agency
opted not to provide formal comments for inclusion in this report.




                              iii
                                                 Audit of NRC’s Telework Program


ABBREVIATIONS AND ACRONYMS

       CBA     Collective Bargaining Agreement
       COOP    Continuity of Operations
       GAO     U.S. Government Accountability Office
       NRC     Nuclear Regulatory Commission
       HR      Office of Human Resources
       OIG     Office of the Inspector General
       OPM     Office of Personnel Management
       PMEF    Primary Mission Essential Functions
       PPF     Pandemic Priority Functions




                               iv
                                                                                Audit of NRC’s Telework Program


TABLE OF CONTENTS

        EXECUTIVE SUMMARY ........................................................................ i

        ABBREVIATIONS AND ACRONYMS ................................................... iv

        I.    BACKGROUND .............................................................................. 1

        II.   PURPOSE ...................................................................................... 4

        III. FINDINGS ...................................................................................... 5

                 A.      OPPORTUNITIES EXIST TO IMPROVE
                         READINESS TO TELEWORK IN EMERGENCY
                         SITUATIONS .....................................................................................5

                 B.      STRENGTHENED INTERNAL CONTROL MEASURES
                         ARE NEEDED TO BETTER IMPLEMENT THE
                         TELEWORK PROGRAM.................................................. 11

                 C.      METHODS TO EVALUATE EMPLOYEE TELEWORK
                         ARRANGEMENTS NEED TO BE IDENTIFIED FOR
                         COMPLIANCE WITH LAW ............................................... 15

        IV. CONSOLIDATED LIST OF RECOMMENDATIONS .................... 17

        V.    AGENCY COMMENTS................................................................. 17


    APPENDICES

        A. SCOPE AND METHODOLOGY ..................................................... 18

        B. OTHER MATTERS ......................................................................... 20




                                                     v
                                                      Audit of NRC’s Telework Program


I.   BACKGROUND

        In recent years, the Federal Government has taken steps to increase
        opportunities for employees to telework. Telework is defined as work
        arrangements in which an employee regularly performs officially assigned
        duties at home or other worksites geographically convenient to the
        employee’s residence.

        The main legislative mandate for telework was established in Public Law
        106-346 §359, Department of Transportation and Related Agencies
        Appropriations, 2001, dated October 23, 2000. This legislation requires
        each executive agency to establish a policy under which eligible
        employees may telework to the maximum extent possible without
        diminished employee performance. Subsequent legislation requires that
        each executive agency ensure the removal of managerial, logistical, and
        other barriers to full implementation and successful functioning of the
        policy. Each agency should also provide adequate administrative, human
        resources, technical, and logistical support for carrying out the policy.

              NRC’s Telework Program

        The Office of Human Resources (HR), Employee/Labor Relations and
        Work Life Branch, has responsibility for implementing the Nuclear
        Regulatory Commission’s (NRC) telework program in accordance with
        telework guidelines stated in the Collective Bargaining Agreement (CBA)
        between NRC and the National Treasury Employees Union, which covers
        approximately 68 percent of NRC permanent employees. NRC recently
        renegotiated the telework program guidelines in the CBA, effective
        November 1, 2009.

        Staff in multiple NRC offices are involved in NRC telework program
        implementation. HR has responsibility for developing policy and
        procedures, including necessary forms, to implement, monitor, evaluate,
        and otherwise administer the program through the agency telework
        coordinator, an HR employee, and each office’s telework coordinator. The
        agency telework coordinator monitors the overall progress of the telework
        program, reports on trends or changes in the agency program and/or
        telecommuting issues in general to the Office of Personnel Management
        (OPM). The agency telework coordinator also provides program
        coordination with offices and regions, the Chief Information Officer, the
        Agency Safety and Health Manager, the Division of Facilities and Security,
        the Computer Security Office, and the Office of the General Counsel.
        Each office’s telework coordinator gathers data to advise managers,
        participants, and other interested parties on matters pertaining to program
        implementation.


                                      1
                                                              Audit of NRC’s Telework Program


                     Telework Categories

              This report addresses three categories of telework arrangements that are
              implemented at NRC: (1) project-based, (2) fixed-schedule, and (3) full-
              time.

                 Project-based telework is used to complete portable short-term tasks
                 such as writing performance appraisals. The time spent is normally
                 measured in terms of days or hours and supervisors approve
                 employee requests for this type of telework arrangement. Previously,
                 managers approved employee requests for project-based telework
                 verbally or via e-mail. Revised CBA guidance now requires employees
                 to request project-based telework using specific NRC forms.
                 Numerous employees telework on a project basis; however, NRC is
                 not required to track the number of project-based teleworkers.

                 Fixed-schedule telework is a regular arrangement to perform portable
                 duties for a specified period of time. Office directors are authorized to
                 approve fixed-schedule telework arrangements for up to 3 days a
                 week. Fixed-schedule telework that exceeds 3 days per week requires
                 HR director approval. The following graph illustrates the number of
                 fixed-schedule teleworkers at NRC.


                        NRC Fixed-Schedule Teleworkers, 2006 - 2009




   800

   700

   600

   500

   400

   300

   200

   100

      0
              2006             2007              2008             2009

Source: NRC data as reported to OPM.



                                             2
                                              Audit of NRC’s Telework Program


   Full-time telework is a type of fixed-schedule telework that occurs
   when an employee primarily works at an alternate workplace. As of
   June 2009, HR had approved 18 NRC employees’ agreements for
   telework on a full-time basis. These full-time teleworkers held a range
   of positions, including, an administrative judge, engineer, cyber-
   security specialist, employee with specialized information technology
   skills, and health physicists. They worked varying schedules ranging
   from 8 to 40 hours per week; part-time employees can be approved to
   telework on a full-time basis. By January 2010, 27 employees had
   either obtained or requested full-time telework, reflecting an
   approximate 50-percent growth in 6 months.

   Full-time teleworkers must receive approval for their arrangement from
   the HR director. The Offices of Information Services, Computer
   Security, and Administration concur on full-time telework requests to
   ensure that teleworkers:

      Have the infrastructure services needed to support their telework.

      Will conduct the work assigned in accordance with NRC computer
      security policy.

      Could be drug tested at an appropriate facility, in accordance with
      agency policy when selected for random drug testing.

    Telework During Emergencies

Telework is one of the tools that can be used to ensure continuity of
essential Government functions in the event of national or local
emergencies. OPM telework guidance states that managers must include
telework in pandemic, as well as, Continuity of Operations (COOP) and
other emergency response planning. Emergency planning guidance also
cites the benefits of using telework to slow the spread of disease by
keeping face-to-face contact to a minimum while at the same time
maintaining operations as close to normal as possible. Implementing
telework during emergencies helps agencies retain functionality if the main
worksite is difficult to access.




                              3
                                                       Audit of NRC’s Telework Program


II.   PURPOSE

         The audit objectives were to determine:

                NRC’s readiness to have staff telework under emergency
                situations.

                The adequacy of internal controls associated with the telework
                program.

                If NRC’s telework program complies with relevant law and OPM
                guidance.

         Appendix A contains more information on the audit scope and
         methodology.




                                       4
                                                                          Audit of NRC’s Telework Program


III.    FINDINGS

                NRC has established a telework program that supports the agency’s
                mission and work/life programs.1 However, opportunities exist to improve
                NRC’s:

                     Readiness to telework during emergency situations.

                     Telework program internal controls.

                     Compliance with law.

                Addressing these areas will improve the management of NRC’s telework
                program as employee use of telework continues to grow.


        A. Opportunities Exist To Improve Readiness To Telework in Emergency
           Situations2

                NRC emergency plans require that employees potentially needed to
                telework during pandemic emergencies be identified and have the
                equipment needed to telework. However, NRC has not identified all of the
                individuals needed for teleworking during pandemic emergencies or the
                methods for accessing information technology systems that are not
                remotely accessible via Citrix3 or in the event of a power failure, but are
                potentially needed for telework to occur. This is because not all NRC
                offices have made completing the telework aspects of pandemic planning
                a priority. Without identifying the individuals needed to telework during
                emergencies and how systems would be accessed for telework during
                emergencies, the agency’s ability to perform mission-related functions in a
                pandemic emergency is diminished.




1
  Work/life programs are human capital tools that help attract and retain employees by allowing them to
balance their work and personal or family lives. Telework is one of a variety of tools, along with alternate
work schedules, annual and sick leave, childcare subsidy, and preventive health services.
2
  Although this report focuses on telework during a pandemic emergency, other events envisioned in
COOP plans and plans to address other emergencies, including natural and manmade disasters, will
necessitate NRC’s preparedness to expand telework.
3
  Citrix refers to an information technology application that allows employees remote computer access to
NRC systems and applications. Citrix supports 1,215 licenses for headquarters and regions combined.
This is the total number of users who could be remotely logged into the NRC network.

                                                      5
                                                                      Audit of NRC’s Telework Program


                       Emergency Planning Telework Requirements

               On November 1, 2005, former President George W. Bush announced the
               National Strategy for Pandemic Influenza and directed all Federal
               agencies to begin internal planning to ensure readiness in the event of an
               influenza pandemic. The NRC Pandemic Plan consists of (1) an overall
               agency plan that promulgates agencywide concepts, guidance, and policy
               and (2) individual office plans that supplement the agency plan with
               specific procedures and other details specific to their office mission and
               function. NRC’s pandemic plans provide guidance for managing tasks
               with a decreasing workforce.

                       Requirement for Identification of Employees and Systems Needed
                       To Perform Essential Functions

               The NRC Pandemic Plan requires NRC to identify the employees and
               systems potentially needed to telework during a pandemic emergency.
               Each headquarters and regional office must develop and implement
               pandemic related processes and procedures in sufficient detail to execute
               the agency and office pandemic plans. Offices with responsibilities for
               performing NRC’s essential functions4 and the offices responsible for
               supporting them are required to develop and maintain lists that identify:

                   Personnel qualified to perform the functions and who can be
                   reassigned to support other offices.

                   Systems required to support those functions.

                   Staff and contractors qualified to operate and maintain the support
                   systems.

                       Information Technology Infrastructure Needed To Telework During
                       a Pandemic Emergency

               NRC’s Executive Director for Operations delegated overall responsibility
               for pandemic planning to the Office of Nuclear Security and Incident
               Response, which formed a Pandemic Task Group that coordinated tasks
               with offices and regions to ensure adequate telework capability during a
               pandemic. The Office of Information Services prepared for the Pandemic
               Task Group a concise description of the practical methods available for
               working at home and, for each method, the functional, equipment, time,
               and other limitations on usage. The methods identified for adequate

4
 These essential functions are those NRC seeks to maintain in a pandemic influenza emergency. Some
Pandemic Priority Functions (PPF) are termed ―primary mission essential functions‖ (PMEF) in NRC’s
Continuity of Operations (COOP) Plan. One example of a PPF that is also a PMEF is threat assessment
and dissemination, which pertains to communication of safety and security information in an emergency.

                                                  6
                                                                       Audit of NRC’s Telework Program


                telework capability include Citrix access, Webmail (to access NRC e-mail
                from the Internet), laptops, access to certain sensitive information,
                Blackberries, work from alternate worksites, and teleconferencing.

                        Individuals and Methods To Access Information Technology
                        Systems Needed for Telework Not Identified

                NRC has not identified (1) all of the individuals needed to telework and
                (2) the methods for accessing information technology systems that are not
                remotely available but are potentially needed for telework during pandemic
                emergencies. Furthermore, the agency has not addressed how it would
                function in the event of a headquarters power failure, which would make
                Citrix, Webmail, and other systems needed to support essential functions
                unavailable.

                        Individuals Needed To Perform Essential Emergency Functions Not
                        Identified

                NRC has not identified all of the individuals needed to carry out essential
                functions while teleworking during pandemic emergencies. As of
                October 30, 2009, 21 of 26 offices had not identified personnel who are
                required to perform essential functions and high priority tasks during a
                pandemic. Although most offices and regions identified the position titles
                in their plans, emergency planning guidance states that individuals should
                be identified. Moreover, the names of the individuals who fill the positions
                are needed to ensure that these individuals are prepared for their roles
                prior to an actual emergency. Agency management stated that offices
                were directed to identify titles rather than individual names so that the lists
                would remain current due to the turnover.

                        Information Technology Infrastructure Not Available Remotely

                NRC has not completely identified methods for accessing information
                technology systems needed for telework during pandemic emergencies.
                NRC employees responsible for performing essential functions in an
                emergency would need to access systems to carry out their functions
                while teleworking during an emergency situation; however, not all systems
                required to support essential functions are available remotely. NRC
                identified 35 applications/systems5 used to carry out the agency's
                essential functions; however, 28 of the 35 applications/systems are not




5
 Data Center Disaster Recovery Planning for U.S Nuclear Regulatory Commission, Task 2 - Business
Impact Analysis, June 22, 2009, contains a matrix that identifies the NRC offices and systems needed to
perform essential functions.

                                                   7
                                                                       Audit of NRC’s Telework Program


                accessible on Citrix or any other type of remote access.6 Thus, these
                systems are not available to personnel who telework and compensating
                plans to use manual or other systems are not in place.

                        Infrastructure Not Available During a Power Failure

                In the event of a headquarters power failure, NRC would be unable to
                access Citrix, Webmail, and other systems required to support essential
                functions.7 Staff have stated that Citrix access is not necessarily needed
                for telework. However, some office pandemic plans do not indicate
                (1) whether employees would use manual methods to continue data
                collection and (2) once the system/application has been restored, how to
                work until normal procedures are fully resumed. Even after a
                system/application becomes available, a mixture of manual (workaround)
                and normal procedures may be needed before office operations return to
                normal.

                        Completing Telework Aspects of Pandemic Planning Not a
                        Management Priority

                NRC has not identified all individuals and systems infrastructure
                potentially needed for telework during pandemic emergencies because the
                agency has not made completing the telework aspects of pandemic
                planning a priority. Although NRC was required to start pandemic
                planning in 2005, the agency has not:

                    Developed a plan to identify and remove the information technology
                    barriers to telework.

                    Referenced the procedures for teleworking during an emergency within
                    telework guidance.

                         No Plan Developed To Identify and Remove Information
                         Technology Telework Barriers

                In 2009, NRC reported to OPM that one of NRC’s major barriers to
                telework is information technology funding issues; however, NRC did not




6
  Some systems that support essential functions would be accessed elsewhere in the event of an
emergency.
7
  In the event of some emergencies, 400 Citrix accounts are available through a regional office.

                                                   8
                                                                      Audit of NRC’s Telework Program


               specify what this barrier entails and has not developed a plan to remove
               the barrier. The Office of the Inspector General (OIG) identified agency
               efforts that describe information technology telework barriers.8 Although
               HR has coordination responsbilities for the telework program, there has
               been no coordinated effort within the agency to identify information
               technology barriers, determine the impact that information technology
               barriers have on the telework program, and the best method for removing
               them.

                       Telework Aspects of Pandemic Planning and Information
                       Technology Tasks Relative to Telework Not Included in Telework
                       Guidance

               Telework aspects of pandemic planning and information technology tasks
               are not referenced in telework guidance. HR has not communicated staff
               roles concerning emergency planning or information technology
               requirements needed during emergency situations. For example, NRC
               Pandemic Plan, revised March 2, 2010, contains the form, ―Contingency
               Plan for Telework (Work at Home).‖ This form is intended to be used as
               guidance throughout the agency for identifying the specific tasks an
               employee would perform in order to maintain important functions and
               services during significant, sustained periods of absenteeism. However,
               this form does not prompt managers to confirm the employee’s contact
               information, space, telephone, computer equipment, and support needs to
               facilitate the telework arrangement. Although a copy of this form is in the
               appendix of the NRC Pandemic Plan, it is not referenced in telework
               program guidance.

                       Mission Accomplishment Diminished

               Without identifying all of the individuals needed to telework and methods
               for accessing systems infrastructure potentially needed for telework during
               pandemic emergencies, the agency’s ability to perform mission-related
               functions in a pandemic emergency is diminished. In addition, a power
               failure would exacerbate the situation and the agency does not have
               compensating plans in place to use manual or other systems. In effect,
               the ability of the agency to use telework during a long-term, severe
               emergency is limited.




8
  Report From The Worklife Working Group, February 11, 2009, recommended that the current NRC
telework program be optimized by providing additional focus on program development and infrastructure.
This would be accomplished by, among other things, considering information technology needs for
teleworkers when upgrading infrastructure such as laptop docking stations, Blackberry devices, and
remotely accessible virtual meeting applications to further enhance NRC’s telework capability.


                                                  9
                                                  Audit of NRC’s Telework Program


Recommendations

OIG recommends that the Executive Director for Operations:

1. Identify all staff with essential functions to facilitate teleworking in an
   emergency.

2. Identify methods for accessing information technology systems
   needed to support essential functions during emergencies.

3. Develop manual or other compensating systems to allow telework if
   access to the agency’s information technology systems is not
   available.

4. Coordinate agency efforts to identify and remove information
   technology telework barriers, which impede teleworking in an
   emergency.

5. Reference emergency planning and information technology
   procedures in telework guidance.




                               10
                                                                      Audit of NRC’s Telework Program


          B. Strengthened Internal Control Measures Are Needed To Better
             Implement the Telework Program

                 Management has the fundamental responsibility to develop and maintain
                 effective internal control over the telework program, such as ensuring that
                 required telework documentation is properly approved, maintained, and
                 readily available for examination. In addition, management is responsible
                 for developing and implementing detailed telework policies and
                 procedures that should appear in a management directive or operating
                 manual. However, NRC is not maintaining complete telework
                 documentation and has not developed or implemented a telework program
                 policy that applies to all agency employees. These internal control
                 weaknesses exist because agency policy and procedures regarding
                 telework are not consolidated into a management directive and handbook.
                 By strengthening internal controls, NRC staff can improve the telework
                 program so that employees will have a common understanding of the
                 program and an increased awareness of opportunities to telework.

                         Management Internal Control Responsibilities

                 Internal control is a significant part of managing a program or organization.
                 U.S. Government Accountability Office (GAO) standards9 provide that
                 management should design and implement detailed program policies and
                 procedures and ensure the accurate recording and documentation of all
                 significant events. In addition, the GAO standards provide that all
                 documentation should be readily available for examination. (Appendix B
                 of this report contains a listing of successful telework program practices
                 and internal controls used by other Federal agencies.)

                         Telework Program Policy Does Not Clearly Apply to All
                         Employees

                 NRC has not developed and fully implemented a telework program policy
                 that applies to all agency employees. The agency’s telework policy is
                 found in Article 7, Telework, of the CBA between NRC and the National
                 Treasury Employees Union. However, the telework policy in the CBA
                 clearly does not cover approximately 32 percent of NRC permanent
                 employees which amounts to 1,255 full-time non-bargaining unit
                 employees. Although in practice, NRC follows the CBA for full-time non-
                 bargaining unit employees, the agency’s telework policy should clearly
                 apply to both bargaining unit and non-bargaining unit personnel.




9
    Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, November 1999.

                                                   11
                                                                         Audit of NRC’s Telework Program


                          Telework Program Policy Does Not Include Key Roles and
                          Responsibilities

                  The current CBA, which contains the agency’s telework program policy,
                  does not contain key roles and responsibilities of personnel who help
                  manage the program. Key roles not included in the current CBA include
                  the agency telework coordinator and office/region telework coordinators.
                  However, roles and responsibilities for these telework personnel were
                  included in the prior CBA. An NRC official stated that these agency
                  responsibilities were not appropriate in a collective bargaining agreement,
                  and thus were excluded from the November 2009 revision. The agency
                  telework coordinator and office telework coordinator responsibilities are
                  not included in any current NRC policies.

                          NRC Is Not Maintaining Complete Telework Documentation

                  NRC is not maintaining complete telework documentation in accordance
                  with internal control standards. OIG reviewed files containing the forms
                  required for management to approve telework and found that
                  concurrences (signatures and dates), forms, and files were missing in
                  numerous cases. Specifically,

                      Of 18 files reviewed for headquarters and regional full-time teleworkers
                      who primarily work from an alternate duty station, 9 were missing
                      required signatures and another 9 were missing one or more of the
                      necessary forms.

                      Of 77 files reviewed of 400 headquarters fixed-schedule teleworkers,
                      20 office directors did not note the date of their approval.

                      Of 17 fixed-schedule teleworkers in one region10 who telework an
                      average of 1 to 3 days per week, 5 files were missing.




10
     This region has the largest number of fixed-schedule teleworkers.

                                                     12
                                                                      Audit of NRC’s Telework Program


       Table 1 reflects the results of OIG’s review of agency telework files.

                                  Table 1. File Review Results:
                              Examples of Incomplete Documentation

Telework         NRC          Sample     Number of    Number of        Number of      Number       Number
Arrangement      Teleworker   Size       Missing      Forms            Files with     of Files     of Forms
                 Universe*               Files        Missing          Incorrect HR   Missing      Missing
                                                      Signatures by    Approvals      Forms        Dates by
                                                      Office                                       Office
                                                      Directors                                    Directors
Full-time
teleworkers,
                                18
headquarters       18 **                                 9 (50%)          2 (11%)     9 (50%)
                              (100%)
and regions

Fixed-
schedule
teleworkers         400       77 (19%)                   5 (6%)                                    20 (26%)
at
headquarters

Fixed-
schedule                        17
                    17                   5***(29%)                                    4 (23%)
teleworkers                   (100%)
at one region

*NRC teleworker universe is an approximation based on information provided by the agency.
**These full-time teleworkers primarily work at home and do not come into the office.
***At the conclusion of the audit, NRC reported that one of the five missing files belonged to a
teleworker whose agreement ended in February 2007.



                         Telework Policy and Procedures Are Not Consolidated into a
                         Management Directive and Handbook

                Telework internal control weaknesses occurred because agency telework
                policy and procedures are not consolidated in a management directive
                and handbook. According to NRC Management Directives System,
                Directive 1.1, NRC issues management directives and handbooks to
                communicate NRC policies, requirements, and procedures necessary for
                the agency to comply with Executive orders, pertinent laws, and
                regulations. Telework policy and procedures have been developed over a
                period of time and documented in several sources such as the CBA,
                Yellow Announcements, internal and external Web sites, and agency
                telework coordinator handouts. Although these sources for telework
                information are helpful, consolidation of this guidance into a management
                directive would better enable managers to access the information needed
                to consistently implement the program. Moreover, with consolidated
                guidance, employees would have a better opportunity to reach a common


                                                 13
                                             Audit of NRC’s Telework Program


understanding of the program and an increased awareness of
opportunities to telework. Furthermore, the agency would have a telework
policy that clearly applies to both bargaining and non-bargaining
personnel.

Recommendations

OIG recommends that the Executive Director for Operations:

6. Develop and implement a management directive and handbook for the
   telework program.

7. Issue consolidated interim telework guidance pending development of
   a telework program management directive and handbook.




                            14
                                                                             Audit of NRC’s Telework Program


          C. Methods To Evaluate Employee Telework Arrangements Need To Be
             Identified for Compliance with Law

                   NRC is required to establish telework policies that provide eligible
                   employees the ability to telework to the maximum extent possible without
                   diminished employee performance. CBA telework eligibility guidance
                   requires that management consider covered employee performance for
                   initial and continued participation. Despite these requirements, managers
                   inconsistently assessed and reported the results of employee
                   arrangements to HR and in some cases did not report the information.
                   Performance was inconsistently assessed and reported because NRC has
                   not established procedures to accomplish a consistent approach. As a
                   result, the agency has no assurance that all employees who telework full-
                   time from alternate worksites are maintaining their expected performance
                   levels.

                           Requirement for Assessing Teleworker Employee Performance

                   Public Law 106-34611 stipulates that agencies must establish telework
                   policies that allow eligible employees to participate in telework to the
                   maximum extent possible without diminished employee performance. The
                   CBA requires that management consider employee performance to
                   determine initial and continued eligibility to participate in the program.

                           Inconsistent Assessment and Reporting of Full-Time
                           Teleworker Employee Performance to the Office of Human
                           Resources

                   Managers inconsistently assessed and reported the results of full-time
                   teleworker employee arrangements to HR. Agreements for some
                   employees to telework full-time from an alternate worksite were approved
                   with the stipulation that the employee’s manager assess and report the
                   results of the telework arrangement to HR. However, as of June 11, 2009,
                   the documentation maintained by the agency telework coordinator for the
                   1812 HR approved full-time teleworker agreements contained the following
                   performance assessment inconsistencies:

                       7 files contained an agreement for a semiannual evaluation of the
                       arrangement.

                       7 files contained an agreement for an annual evaluation of the
                       arrangement.

11
     Public Law 106–346—Oct. 23, 2000, Department of Transportation and Related Agencies Appropriations, 2001.
12
  OIG notes that HR provided the file of one employee whose full-time telework agreement was approved
as a condition of employment; however the employee did not accept employment at NRC.

                                                       15
                                               Audit of NRC’s Telework Program




   1 file contained an agreement for an evaluation at the end of the
   arrangement.

   3 files did not mention an evaluation of the arrangement.

Based on the agreements for the 17 full-time teleworkers as of June 11,
2009, managers should have provided HR with an evaluation of 8 telework
arrangements. However, only two files contained documentation
indicating that an assessment had occurred. Of these, one evaluation of
the telework arrangement was a multiple-page, detailed description of the
tasks performed, while the second described the employee’s performance
in a single sentence.

      No Established Procedures for Assessing and Reporting
      Full-Time Teleworker Performance

Performance was not consistently assessed and reported because NRC
has not established procedures for evaluating the results of the full-time
telework arrangement.

      No Assurance That Performance Is Being Maintained

Without periodically assessing and reporting the results of the telework
arrangement to HR, as stipulated in the telework agreement, NRC has no
assurance that employees who telework full-time from an alternate
worksite are maintaining expected performance levels.

Recommendation

OIG recommends that the Executive Director for Operations:

8. Develop and implement a procedure for assessing and reporting the
   results of full-time telework arrangements to the Office of Human
   Resources.




                              16
                                                            Audit of NRC’s Telework Program


IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1. Identify all staff with essential functions to facilitate teleworking in an
             emergency.

          2. Identify methods for accessing information technology systems
             needed to support essential functions during emergencies.

          3. Develop manual or other compensating systems to allow telework if
             access to the agency’s information technology systems is not
             available.

          4. Coordinate agency efforts to identify and remove information
             technology telework barriers, which impede teleworking in an
             emergency.

          5. Reference emergency planning and information technology
             procedures in telework guidance.

          6. Develop and implement a management directive and handbook for the
             telework program.

          7. Issue consolidated interim telework guidance pending development of
             a telework program management directive and handbook.

          8. Develop and implement a procedure for assessing and reporting the
             results of full-time telework arrangements to the Office of Human
             Resources.


V.    AGENCY COMMENTS

          At an exit conference on April 30, 2010, agency management stated their
          general agreement with the findings and recommendations in this report.
          Agency management also provided supplemental information that has
          been incorporated into this report as appropriate. As a result, the agency
          opted not to provide formal comments for inclusion in this report.




                                         17
                                                      Audit of NRC’s Telework Program


                                                                         Appendix A
SCOPE AND METHODOLOGY

       The audit objectives were to determine (1) NRC’s readiness to have staff
       telework under emergency situations, (2) the adequacy of internal controls
       associated with the telework program, and (3) if NRC’s telework program
       complies with relevant law and OPM guidance.

       To accomplish the audit objectives, OIG obtained and analyzed pertinent
       laws, regulations, and authoritative guidance, and NRC policies and
       procedures, including relevant sections of the CBA.

       Additionally, OIG reviewed various reports, HR documents, and internal
       communications and conducted interviews with staff to:

          Gain an understanding of NRC’s telework program.

          Determine relevant current issues, problems, and known deficiencies.

          Assess internal controls.

       OIG met with the agency’s Pandemic Working Group and identified
       requirements for telework as outlined in the NRC Pandemic Plan. OIG
       also performed a site visit at Region I and performed additional work via
       telephone related to telework at Region II.

       This audit did not include a review of the special circumstances work-at-
       home policy because this provision is not implemented in accordance with
       the same public law and collective bargaining agreement provisions as
       telework.

       Internal controls that relate to the audit objectives were reviewed and
       analyzed. Throughout this audit, auditors were aware of the possibility or
       existence of fraud, waste, or misuse in NRC’s telework program.

       We conducted this performance audit in accordance with generally
       accepted government auditing standards from May 2009 to February
       2010. Those standards require that we plan and perform the audit to
       obtain sufficient, appropriate evidence to provide a reasonable basis for
       our findings and conclusions based on the stated audit objectives. We
       believe that the evidence obtained provides a reasonable basis for our
       findings and conclusions based on the stated audit objectives.




                                      18
                                             Audit of NRC’s Telework Program


The work was conducted by Steven Zane, Team Leader; Vicki Foster,
Audit Manager; Yvette Mabry, Senior Auditor; Elaine Kolb, Senior Auditor;
Michael Steinberg, Senior Auditor; and Dennis Sylvester, Auditor. We
performed this audit work at NRC Headquarters in Rockville, Maryland,
and Region I offices in King of Prussia, Pennsylvania.




                             19
                                                     Audit of NRC’s Telework Program


                                                                        Appendix B
OTHER MATTERS

       During the course of this audit, OIG considered other matters, including
       telework program practices and internal controls used by other Federal
       agencies such as the U.S. Patent and Trademark Office and the Office of
       Personnel Management. Key successful telework program practices and
       internal controls follow.

       Successful Telework Program Practices and Internal Controls

          In addition to their Collective Bargaining Agreement, the U.S. Patent
          and Trademark Office maintains telework policy provisions in a
          separate policy.

          Communicate with teleworking employees on a regular basis through
          traditional methods and videoconferencing, document sharing (e.g.,
          use of SharePoint sites), and virtual meetings.

          Plan the work in advance, set expectations, and monitor performance
          on a continual basis.

          Track the following information: general/salary level, number of days of
          telework, number of eligible positions teleworking in each office,
          agencywide teleworkers, percentage of eligible positions teleworking,
          and percentage of total positions teleworking.

          Consider entering telework information, including telework agreements,
          into an enterprise-wide telework database by the agency telework
          coordinator. This should facilitate retrieving the information for the
          OPM annual data call.

          Consider the applicability and adaptability of reimbursing teleworking
          employees for costs (subject to limitations) associated with maintaining
          high-speed internet access at employees’ homes. (A January 2007
          GAO decision allows agencies to reimburse employees for high-speed
          Internet service at employees’ homes associated with the agency’s
          telework program.)

          Establish controls to help ensure that high-speed Internet access
          services are reimbursed only for official purposes.




                                    20
